<html>
<title> - H. CON. RES. 331, COMMENDING ISRAEL'S REDEPLOYMENT FROM SOUTHERN LEBANON</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   H. CON. RES. 331, COMMENDING ISRAEL'S REDEPLOYMENT FROM SOUTHERN 
                                LEBANON

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2000

                               __________

                           Serial No. 106-160

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-829                     WASHINGTON : 2000

                                 ______


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Con. Res. 331, Commending Israel's redeployment from 
  southern Lebanon...............................................     1

                                APPENDIX

House Concurrent Resolution 331..................................     3

 
   H. CON. RES. 331, COMMENDING ISRAEL'S REDEPLOYMENT FROM SOUTHERN 
                                LEBANON

                              ----------                              


                        WEDNESDAY, MAY 24, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4:37 p.m. In Room 
H-139, The Capitol, Hon. Benjamin A. Gilman (Chairman of the 
Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    The Committee on International Relations meets in open 
session, pursuant to notice, to mark up House Concurrent 
Resolution 331.
    The Chair lays the resolution before the Committee. The 
clerk will report the title of the resolution.
    Mr. Weinberg. House Concurrent Resolution 331. Concurrent 
resolution----
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for amendment. The clerk will read.
    Mr. Weinberg. Whereas Israel has been actively seeking a 
comprehensive----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    [The bill appears in the appendix.]
    Chairman Gilman. This resolution is in the original 
jurisdiction of the Full Committee. I would now recognize 
myself briefly to introduce this resolution.
    H. Con. Res. 331, a concurrent resolution introduced by our 
distinguished Majority Leader, Mr. Armey of Texas, commends 
Israel's decision to withdraw its forces from southern Lebanon.
    I was more than pleased to lend my cosponsorship and strong 
support to this resolution, which also calls on the U.N. 
Security Council to recognize Israel's fulfillment of 
Resolution 425, and to insist that all foreign forces be 
withdrawn from Lebanon.
    Also cosponsoring H. Con. Res. 331 are the distinguished 
Minority Leader, Mr. Gephardt of Missouri, as well as our 
Ranking Minority Member of our House International Relations 
Committee, Mr. Gejdenson of Connecticut.
    Israel's courageous decision to pull out of Lebanon 
demonstrates its strong commitment to a peaceful resolution to 
the conflicts that trouble the region.
    By withdrawing from Lebanon, Israel will be in full 
compliance with U.N. Security Council Resolution 425.
    A major priority of ours is to affirm Israel's right, as 
noted in Chapter 7, Article 51 of the United Nations Charter, 
to defend itself and its civilians from attack. I am pleased 
that in H. Con. Res. 331 we are sending a strong bipartisan 
message of peace and stability to the region, and I urge our 
colleagues to fully support this important and timely 
resolution.
    Mr. Gejdenson?
    Mr. Gejdenson. Thank you, Mr. Chairman. I want to commend 
you for moving this resolution as rapidly as we are.
    I want to say that Israel, with Prime Minister Barak and 
his commitment during the campaign to remove Israeli forces 
from Lebanon, has fulfilled that obligation; and I think we are 
appropriate in commending the Israelis for this action that has 
I think begun, a process of Lebanon taking full control of its 
own territory.
    The United States and the United Nations should do 
everything they can to assist Lebanon in taking over full 
control of its territory, removing all the foreign entities and 
controlling all internal entities. Clearly, Hezbollah should 
recognize this as an opportunity to take peaceful political 
actions. Additionally, countries in the region, particularly 
Syria, I think, have to be warned that if they try to use this 
as an opportunity for creating mischief, they will pay a 
terrible price in the international community, let alone any 
reaction by the Israelis.
    The unanimous position of the Arab world and much of the 
world indeed has been that Israel should withdraw from Lebanon; 
and now that it has done so, it would be particularly 
outrageous if we see the Syrians trying to cause additional 
trouble along that border. To the contrary, the Syrians ought 
to figure out how to help Lebanon pull itself together and pull 
their forces out of Lebanon. Obviously, this is something that 
many people have worked on for a long time. Lebanon is a 
country that suffered tremendously through the years, and we 
should use this as an opportunity to help the Lebanese rebuild 
their society.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Are any other Members seeking recognition?
    If not, I call on the gentleman from New York, Mr. King, to 
offer a motion.
    Mr. King. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from New York, Mr. King. As many as are in favor of 
the motion, say aye. As many as are opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    Mr. Hastings. I would like to have my name added as a 
cosponsor.
    Mr. Gejdenson. Mr. Wexler would like his name added.
    Chairman Gilman. Mr. Wexler, Mr. Hastings, Mr. Cooksey, and 
Mr. King also want to be added.
    Mr. Gejdenson. I ask unanimous consent that all Members 
have an opportunity to submit additional statements for the 
record.
    Chairman Gilman. Without objection.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Chairman Gilman. The Committee stands adjourned.
    [Whereupon, at 4:43 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 24, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7829.001
    
    [GRAPHIC] [TIFF OMITTED] T7829.002
    
    [GRAPHIC] [TIFF OMITTED] T7829.003
    

</pre></body></html>
